...

v

No.

i_l, . .!

IN THE
SUPREME COURT OF THE UNITED STATES

GARY PISNER PETITIONER,

o:-

V.

■.

i

ROBERT MCCARTHY
RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO THE
MARYLAND COURT OF THE SPECIAL APPEALS
PETITION FOR A WRIT OF CERTIORARI
CARY STEVEN PISNER, ESQ.
Petitioner Pro Se,
10561 Assembly Drive
Fairfax, Virginia 22030
703-597-6447
gpisner@outlook.com

received
DEC 28 2020

i

f

I.

QUESTIONS PRESENTED

1. In this matter there was no procedural due
process for the Petitioner, no notice, no review of
evidence, no testimony under oath, no service of
documents prior to the trial court removing the
Petitioner, the beneficiary of a trust and trustee
of the trust, before the trial court appointed its
default court appointed trustee and before the
court appointed trustee transferred all of the
trust assets to a prior beneficiary of the trust,
who was working with the trustee and to the
appointed trustee?
2. Does a court appointed trustee have the powers
and responsibilities of a trustee that was not
appointed by a court, such as the ability to issue
orders, which can be enforced by a contempt
proceeding; the ability to override court orders;
the ability to have ex parte contacts with the
judges; the ability to disregard the trust
agreement?
3. Does a court appointed trustee have the ability to
use the assets of the trust, the assets, held in
trust for the beneficiary, to use as consideration
in an attempt to acquire a general release of
liability for the trustee and his associates?
4. Does a court appointed trustee have the ability to
seek the incarceration of a beneficiary after the
beneficiary moves for the court appointed
trustee’s removal?

ii

Table of Contents
PETITION FOR A WRIT OF CERTIORARI..................
I.

QUESTIONS PRESENTED.........................................

TABLE OF AUTHORITIES................................................................

ii

II.

PARTIES TO THE PROCEEDINGS.....................

iv

III.

PETITION FOR A WRIT OF CERTIORARI.......

1

IV.

OPINION BELOW......................................................

1

V.

JURISDICTION..........................................................

1

VI.

CONSTITUTIONAL PROVISIONS INVOLVED

2

VII.

STATEMENT OF THE CASE.................................

2

A.
How around $800,000, through the actions of the courts, was taken
without any procedural due process.................................................................................... 2
B.
The contempt proceedings: How a lawyer can make money by putting his
client in jail......................................................................................
6
C.
VIII.

Something worse than no procedural due process

7

REASONS FOR GRANTING THE WRIT....................

8

Certificate of service and word count

10

X.

11

APPENDIX

TABLE OF AUTHORITIES
Other Authorities
5th Amendment to the United States Constitution.......
Section 1 of the 14th Amendment to the United States

iii

2,9
2,9

II.

PARTIES TO THE PROCEEDINGS

Gary Pisner, Esq. was a beneficiary and one of the
original trustees named in the trust agreement, in the
Marion E. Pisner Trust (hereinafter “Trust”), a Maryland
Trust formed in late 2009 by Marion Pisner, shortly
before her death in January 2010, Petitioner.

Robert McCarthy, Esq. is a lawyer who has had a
law practice that subsists on trustee and guardianship
court appointments in a number of Maryland
jurisdiction, including Montgomery, Queen Anne, and
Baltimore counties, (also Baltimore City)- apparently
for a number of decades and who was appointed as the
substitute trustee of the Trust, Respondent.

iv

III.

PETITION FOR A WRIT OF CERTIORARI

Gary Pisner, beneficiary of the Marion E. Pisner Trust, respectfully
petitions this court for a writ of certiorari to review the memorandum opinion of
the Maryland court of Special appeals.

IV.

OPINION BELOW

The unpublished memorandum opinion, which was the consolidation of
three appeals, in the Maryland Court of Special Appeals of March 18, 2020 and
the court’s order of May 4, 2020 denying Pisner’s Motion for Reconsideration: for
cases 3041 included herein as Appendix 1.
Gary Pisner Appellant vs. Robert McCarthy Appellate, No. 3041,
September Term 2018, Court of Special Appeals (Circuit Court No. 42798V),
which appears to be a combination of two appeals, one from December 19, 2018
and one from May 13, 2019, which were combined, without the knowledge of this
Petitioner. The other appeal included was for case Appeal 1037, which related
to contempt proceedings.

V.

JURISDICTION

This Court has jurisdiction of this petition to review the Opinion of the
Maryland Court of Special Appeals, which was appealed to the Maryland Court of
Appeals, where writs of certiorari were denied on July 24, 2020 (see Appendix 2),
which is within the one hundred and fifty (150) days allotted for appeals under
this court’s emergency order.
1

VI.

CONSTITUTIONAL PROVISIONS INVOLVED

5th Amendment to the United States Constitution.
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia, when in actual service in
time of War or public danger; nor shall any person be subject for the same offence
to be twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for public use,
without just compensation.
Section 1 of the 14th Amendment to the United States
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the state wherein
they reside. No state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any state
deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.

VII.

STATEMENT OF THE CASE

A. How around $800,000, through the actions of the courts, was taken without any procedural
due process.
Pisner was a beneficiary of the Marion E. Pisner Trust and a former
CoTrustee of the Marion E. Pisner Trust, who opposed the appointment of
McCarthy who was appointed by the trial court as a Substitute Trustee during a
proceeding to address a Petition for a Declaration of Rights, submitted by the
Trust, whose purpose was to interpret the settlor’s Marion E. Pisner, Trust
Agreement, in light of Maryland law.
2

The main reason for the Petition for a Declaration of Rights, was to
address an issue that had arisen in the sale of a trust property, which the
CoTrustee Marla Rubinstein (hereinafter “Rubinstein”), had endorsed and
encouraged; moreover, that property sale was the source for the funds to pay for
an audit and to pay off the debts of the Trust. This was during a period of time
when Rubinstein had volunteered to run the Trust, because Pisner’s son had been
diagnosed with leukemia. There was an offer to purchase the property pending,
but Rubinstein was silent, not returning calls, and unresponsive to the sale offer.
This continued for months and the Trust faced fines for maintaining a
vacant property and for maintenance violations; moreover, property taxes were
unpaid, and the District of Columbia had initiated the process of a tax sale of the
property.
After many months, Rubinstein indicated that the reason for her lack of
responsiveness was that she had decided that she wanted the property for herself
and that she would not sign any agreement or endorse any deed because she
wanted the property for herself.
She initially indicated that she would pay Pisner $50,000 for the property
which had been estimated to be worth over $200,000. As for the trust debt and
audit, Rubinstein would require Pisner to pay for that. Finally, the person who
made the offer to purchase the property was losing his patience. There was
obvious self-dealing on the part of Rubinstein, but to be fair, Pisner and
Rubinstein decided to let a court decide.

3

Prior to the hearing on the Petition for a Declaration of Rights, Rubinstein
filed a document with the court making easily disproven falsehoods about Pisner
and she demanded that a replacement Trustee should be appointed.
The problem was that Rubinstein never served that document on Pisner,
so on the day of the hearing on the Trust’s Petition for a Declaration of Rights,
rather than address the Declaration of Rights, the court decided before Pisner
even saw Rubinstein’s document that, based on Rubinstein’s filing, which Pisner
had not seen, she was going to appoint a replacement trustee.
After the hearing, Pisner was given a copy of Rubinstein’s filing: It was a
total fiction. Pisner responded by filing a Motion to Strike and Reply to
Rubinstein’s document. After Rubinstein was served with Pisner’s Motion, she
filed another document, recanting her earlier filing and she withdrew her request
for the appointment of a substitute trustee - both were ignored and at the follow­
up hearing the court decided that It would appoint McCarthy, who is the default
court appointed trustee, so as one can see there was no procedural due process
prior to the appointment of the trustee. Keep in mind that Pisner was a
beneficiary of the trust.
After McCarthy’s appointment and a notice by McCarthy that he intended
to dispose of the assets of the trust immediately; in addition, McCarthy indicated
that he would not allow Pisner to review the Trust files. Pisner appealed to the
Maryland Court of Special Appeals the appointment of McCarthy and, in
response, McCarthy filed a motion to dismiss the appeal, where he claimed that
he did not intend to dispose of Trust property and that an interlocutory appeal
was premature: The appellate court granted his motion, which McCarthy would
4

later allege had been false.
At this point in time Rubinstein’s document withdrawing her request for
the appointment of a replacement trustee, Pisner’s Motion to Strike and Reply
and his Motion for Reconsideration, had not been reviewed by the court, but
approximately 4 months after McCarthy’s and a day before the record of the trial
court was scheduled to be transferred to the appellate court, an inconsistent order
was issued by the court summarily disposing of all outstanding matter, without
explanation, so consider this, after month, there had been no hearing, no
testimony under oath, no proceeding to verify or discredit anything that
Rubinstein had submitted to the court or stated to the court; moreover, Pisner
had no access to the trust file, McCarthy refused to speak to Pisner and the court
blocked any testimony by McCarthy.
To be clear, the trust had approximately $800,000.00 in assets at the time
of McCarthy’s appointment.
Later, McCarthy filed a document in another case in the Maryland court of
Special Appeals claiming that he had sold the trust assets: Again - remember at
this time there had been no procedural due process and $800,000.00 of the Trust
assets were, according to McCarthy, sold and no longer under the control of the
Trust. Once McCarthy admitted to the court that there were no longer any assets
to distribute, Pisner filed an appeal to the Maryland court of Special Appeals.
In January of 2020 Pisner filed a suit against Rubinstein for among other
things, that she had committed fraud and in February Pisner discovered that
McCarthy had transferred the assets of the trust, with the exception of a
substantial payment to McCarthy, which Rubinstein had approved, in secret, to
5

Rubinstein’s personal trust and that she had deeds issued by McCarthy.
Rubinstein notified McCarthy of this legal action and, although the trust,
had no assets, McCarthy improperly filed a Motion for Distribution, in the trial
court, while the appellate court had jurisdiction over the case, where the trial
court, during an ex parte hearing, permitted McCarthy to pay Pisner $50,000 in
exchange for a general release of McCarthy, his associates, his contractors and
Rubinstein for any liability. Even more disturbing, McCarthy claimed that
rather than do a three-year audit, pursuant to the court order he had decided to
do an audit going back to 2008 and that Pisner had failed to supply documents,
apparently, from the 2010 to 2011 time period, which the record indicates were
turned over to the Trust’s accountant. Again- the hearing was ex parte. Pisner
was not noticed of it.:
B. The contempt proceedings: How a lawyer can make money by putting his client in jail.
The trial court, upon replacing the trustees ordered a three-year audit.
Based on that order Pisner supplied all documents related to the trust for the
prior three years. McCarthy filed a suggestion of contempt and in court he
alleged that McCarthy could issue orders and that Pisner has failed to comply
with his order: The court rejected McCarthy’s position, but expanded discovery to
prior years, stating that you would need some information before the three-year
audit period for the three-year audit: There is a three-year statutory bar for an
audit.

6

Later McCarthy, a few days after being served with a motion to have him
removed as the trustee for numerous causes, filed an action with the trial court
alleging that Pisner had failed to supply documents, which the record indicates
that McCarthy had actually received from Pisner. The court deferred to the
court appointed McCarthy and it issued an order of an order finding Pisner, the
beneficiary of the Trust, in contempt of court; moreover, the trial court order
required Pisner to be incarcerated for sixty (60) days, unless Pisner purged his
contempt by turning over documents, which were alleged to be missing. After
Pisner submitted evidence to the trial court, which showed that McCarthy’s
witnesses had given false testimony, under oath, and the alleged missing
documents had been supplied, McCarthy withdrew his request for incarceration,
but the court decided that it would leave the contempt issue to the appellate
court: The Judge was retiring in a few weeks. This was also the period where the
Trust assets were being transferred to Rubinstein.
C. Something worse than no procedural due process.
One has to be incredibly careful with trusts. This court has heard a
number of cases related to the procedural due process rights of a trustee.
Consider this, as in this instance, the trustee will use the beneficiary’s money to
defend himself and the victim, the beneficiary, will have no money to hire a
lawyer because the trustee has his money. No wonder this kind of trust related
procedural due process failure is so hidden. That is why the state laws and
fiduciary duties, and the legal ethics are a second line of defense for a beneficiary.
The problem here is that you may not see these guardrails in cases where there is
a court appointed trustee or guardian. When a court appointed trustee, ignores
7

the terms of the trust agreement, when a trustee works for the benefit of himself,
rather than the for the benefit of the beneficiary; when the trustee seeks to
incarcerate a beneficiary after that beneficiary opposes the trustee’s behavior;
when the trustee refuses to permit access to trust documents; when a trustee
conceals asset transfers and compensation, the guardrails are gone.

VIII.

REASONS FOR GRANTING THE WRIT

This case amply exposes the flaws in the state court’s handling of trust
cases. This case is a cautionary example where the lack of procedural due process
in trust matters can result in hundreds of thousands of dollars in assets being
taken from a person without any of those constitutional safeguards coming into
play by using a court appointed proxy, who is, as in this case, not bound by any
legal or ethical constraints.
This court has issued opinions related to the due process rights of trustee,
but this matter is different in that the Trustee that was removed was also a
beneficiary, so the right to procedural due process is blatant - replacing a trustee
who is also a beneficiary will always deprive that beneficiary of his property and
in this instance potentially his liberty.
In addition, one can see that, for a trust, procedural due process must be
more than a day in court, because a trustee, as in this instance, can behave in a
quasi-judicial manner and the statutes that regulate the behavior of a trustee or a guardian should be
treated, from a due process standpoint, no differently than the rules that regulate the behavior of a judge.
In this instance, we have procedural due process failures by both the court s and the trustee.
8

There is little case law on point in this area of the law; it is time to rectify
this for the sake of the beneficiaries and wards, who are forcibly deprived of their
property by a court or its appointee.
As argued in his appeals court brief, Pisner stated that:
A court can remove a trustee, but there must be some degree of
due process before that is done. The removal of a trustee is not
something that can be done as a knee-jerk reaction to a filing by
one party, without proper review of the veracity of the filing,
especially when that trustee is also a beneficiary. There are
constitutional issues that are required before a beneficiary's
rights and property are taken and, as the record indicates that
was not done.
The Fifth Amendment to the United States Constitution provides:
"No person shall... be deprived of life, liberty, or property, without due
process of law ..."
Section One of the Fourteenth Amendment to the United States
Constitution provides:
" [N]or shall any State deprive any person of life, liberty, or property,
without due process of law."

9

IX.

Conclusion

For the reasons set forth above, the Petitioner Pisner
respectfully requests that this Court issue a Writ of
Certiorari to review the memorandum opinion and
order denying Pisner’s motion for reconsideration.

Respectfully,
V
Gary Pisner, Esq.
Petitioner, Pro Se
10561 Assembly Drive
Fairfax, Virginia 22030
Tel: 703-597-6447
Fax: 1-866-268-1771
gpisneiOoutlook.com
Certificate of service and word count.
I certify that a copy of this petition has been mailed to
Charles H. Fleischer, Oppenheimer, Fleischer & Quiggle, P.C. 4419 East West
Highway Bethesda, MD 20814, counsel for Respondent on Dec 22, 2020.
I certify that this Petition contains 2854 words

X.

APPENDIX

10

